SUPREME COURT OF THE UNITED STATES
No.

20-1606

Brett Hendrickson
(Petitioner)

AFSCME Council 18, et al.
V.

(Respondent )

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:

o

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent (s):

AFSCME Council 18

Please check the appropriate box:

©

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

o

I am not presently a member of the Bar of this Court. Should a response be requested , the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street , NE , Washington, D.C. 20543).

Signature:

6/14/21

Date:

(Type or print) Name Scott A. Kronland

Firm

Altshuler Berzon LLP

Address

177 Post St., #300

City & State

San Francisco, CA

Phone

(415) 421-7151

Zip 94108

Email skronland@altber.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se . Please indicate below the
name (s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Brian Kirk Kelsey, Liberty Justice Ctr, 208 S. LaSalle St., #1690, Chicago, IL 60604
Shane C Youtz, Youtz & Valdez, PC, 900 Gold Avenue SW, Albuquerque, NM 87102
Alfred A Park, Park & Associates, LLC, 3840 Masthead St., N.E., Albuquerque, NM 87109

